Inspection Report No. OIG-INS-10-00-07: Internet Web Site User Privacy
Inspection Report No. OIG-INS-10-00-07 Internet Web Site User Privacy
UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General
Memorandum
July 28, 2000
To: Gloria Joseph
Director, Division of Administration
From: Jane E. Altenhofen
Inspector General
Subject: Inspection Report No. OIG-INS-10-00-07: Internet Web Site User
Privacy
We initiated this inspection in July 2000 to evaluate whether the
National Labor Relations Board (NLRB) web site practices and procedures
meet the Office of Management and Budget (OMB) requirements. In June 2000,
OMB issued a memorandum that states that each agency "should
immediately review its compliance with its stated web privacy
policies" and must include "a description of your privacy
practices and the steps taken to ensure compliance with this
memorandum" in the agency budget submission this fall. We suggest
that the Agency submit this report with the submission on information
technology.
We found that the NLRB web site practices and procedures comply with
the OMB requirements. NLRB has on its web site a clear statement of its
privacy policy. This statement is clearly labeled and easily accessed when
someone visits the web site. We also found that NLRB adheres to the stated
privacy policy, and that the NLRB web site does not use technology that
can track the activities of users over time and across different web
sites.
SCOPE
We interviewed NLRB staff in the Division of Information and the
Division of Administration -- Information Technology Branch (ITB) and
Library and Administrative Services Branch -- who make up the Web Site
Committee. We also interviewed staff at the Government Printing Office
(GPO). We reviewed OMB memorandums M-99-18, Privacy Policies on Federal
Web Sites, issued June 2, 1999, and M-00-13, Privacy Policies and Data
Collection on Federal Web Sites, issued June 22, 2000; 5 U.S.C. 552a; the
NLRB web site privacy statement; and the web site visitor report provided
to the NLRB by GPO.
BACKGROUND
The NLRB web site is hosted and maintained by GPO. The Web Site
Committee prepares web site material and transmits it to GPO. Funding for
the NLRB web site is included in the Library and Administrative Service
Branch's budget.
OMB memorandum M-99-18 requires that an agency post clear privacy
policies on its web site. The policy must clearly and concisely inform
visitors to the site as to what information about the visitor will be
collected during the web site visit, why the agency collects the
information, and how the agency will use the information. The Privacy Act,
5 U.S.C. § 553a, requires that agencies protect an individual's right to
privacy when its collects personal information.
OMB memorandum M-00-13 directs that agencies, or contractors operating
web sites on behalf of agencies, not use technology that can track the
activities of users over time and across different web sites unless, in
addition to a clear and conspicuous notice, the following conditions are
met: (1) there is a compelling need to gather the information; (2) there
are appropriate and publicly disclosed privacy safeguards for handling the
information gathered; and (3) the gathering of the information is
personally approved by the head of the agency.
NLRB PRIVACY STATEMENT
The NLRB web site privacy statement clearly states that the NLRB
collects no personal information about the user unless the user chooses to
provide the information. Because the NLRB web site does not have
interactive screens that require or allow a web site visitor to provide
personal information, the only method of providing such personal
information would be via e-mail. The privacy statement also provides clear
notice that the only information automatically collected is the visitor's
Internet domain and protocol address; the type of browser and operating
system used to the access the web site; the files visited and the time
spent in each file; and the time and date of the visit. This non-personal
information does not require a statement about why the NLRB collects the
information or how the NLRB will use the information.
WEB SITE VISITOR INFORMATION OBTAINED BY THE NLRB
The NLRB web site is hosted by the GPO. Monthly, GPO provides the NLRB
with statistical report detailing user activity on the NLRB web site and
the location of the Internet service provider used to access the NLRB web
site. This statistical information does not provide personal information
about NLRB web site users and complies with the NLRB's web site privacy
statement. GPO does not employ technology on the NLRB web site that can
track the activities of users over time and across different web sites.
This inspection report was reviewed by the Director, Division of
Administration, who concurred with the factual findings.
This inspection was done in accordance with the Quality Standards for
Inspections issued by the President's Council on Integrity and Efficiency.
cc: The Board
General Counsel